THE QLAW FOUNDATION
OF WASHINGTON

J. Denise Diskin
Executive Director
denise@qIawfoundation.org

August 24, 2021

Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543

Re:

Seattle's Union Gospel Mission v. Woods, No. 21-144

Dear Mr. Harris:
I am counsel of record for Respondent in this case. Additional co-counsel on the case
are listed below. I have submitted my application for admission to the United States
Supreme Court Bar but am not yet admitted. I acknowledge that the brief in opposition must
be filed by a Bar member.
This letter confirms blanket consent on the part of Respondent to the filing of any and
all amicus briefs in support of either or of neither party in the above-referenced case, with
respect to the petition for writ of certiorari filed on August 2, 2021.
Thank you very much for your time and assistance in this matter.

Very truly yours,

ibnnifer Denise Diskin
Counsel for Respondent
QLaw Foundation of Washington

101 Yesler Way #300
Seattle, Washington 98104
(206) 483-2725
denise@q1awfoundation.org

Educating the public and empowering the community.

www.qIawfoundation.org I 101 Yesler Way #300 Seattle, WA 98104 I (206) 48

RECEIVED
_2740 26 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

Page 12
Co-Counsel for Respondent:
Sara Amies
Seattle Employment Law Partners, PLLC
705 Second Avenue, Suite 1200
Seattle, WA 98104
(206) 899-5448
sara@seaemplaw.com
Andrew Kashyap
Legal Voice
907 Pine Street, Suite 500
Seattle, WA 98101
(206) 682-9552
andrew(filegalvoice.org

cc:

All Counsel

Educating the public and empowering the community.
www.qIawfoundation.org I 101 Yesler Way #300 Seattle, WA 98104 I (206) 483-2725

